DOE/IG-0488




  INSPECTION                          INSPECTION OF
    REPORT                         SELECTED ASPECTS OF
                               THE DEPARTMENT OF ENERGY’S
                                  CLASSIFIED DOCUMENT
                                  TRANSMITTAL PROCESS




                                     NOVEMBER 2000




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                             U.S. DEPARTMENT OF ENERGY
                                   Washington, DC 20585

                                       November 20, 2000



MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman /s/
                       Inspector General

SUBJECT:                INFORMATION: Report on “Inspection of Selected Aspects of the
                        Department of Energy’s Classified Document Transmittal Process”

BACKGROUND

In view of recent concerns regarding the security of Department of Energy (DOE) classified
information, including nuclear weapons information, we initiated an inspection to determine whether
officials of the Department and its contractors, including officials of the National Nuclear Security
Administration (NNSA) and its contractors, followed the Department’s policies and procedures
when transmitting classified documents to entities outside the Department.

RESULTS OF INSPECTION

We found that three DOE/NNSA laboratories sent classified documents to addresses outside the
Department that were not listed in the Department’s database of approved recipients of such
documents. We reviewed a judgmental sample of classified document transmittals during calendar
year 1999 by selected Department Headquarters and field organizations and three Department
laboratories. We found that approximately 15 percent of the transmittals in our sample had been
sent by the three laboratories to addresses that were not listed in the Department’s database. These
transmittals were either made to an address other than the classified mailing address listed in the
database, or were made to facilities that were not registered in the database at the time of the
transmittal.

The Department’s policy is very clear on the transmittal of classified material. Specifically, it
provides that classified matter shall be addressed only to approved classified addresses, and all such
addresses must be verified through the database. When we brought this matter to the attention of the
Director, Office of Security and Emergency Operations, he acknowledged that the Department’s
policy had been violated, but concluded that there was no compromise of classified information. We
did not independently confirm that no compromise took place. However, we concluded that actions
were required by the Department to ensure that policies and procedures relating to transmittal of
classified documents are precisely executed and that officials of the Department and its contractors
are held accountable when the policies and procedures are not followed.
MANAGEMENT REACTION

Management concurred with our findings and described corrective actions to implement our
recommendations. The Deputy Secretary’s response is set out in full in Appendix B of the report.

Attachment

cc: Deputy Secretary
    Under Secretary for Nuclear Security/Administrator for Nuclear Security
    Under Secretary for Energy, Science and Environment
    Director, Office of Security and Emergency Operations
    Director, Office of Defense Nuclear Security
INSPECTION OF SELECTED ASPECTS OF THE
DEPARTMENT OF ENERGY’S CLASSIFIED DOCUMENT
TRANSMITTAL PROCESS


TABLE OF
CONTENTS



              Overview

              Introduction and Objective…………………………………. 1

              Observations and Conclusions……………………………. 1


              Details of Findings

              Management Alert Issued..….…………………………….. 2

              Department Action………………………………………….. 2

              Management Comments on
               Initial Draft Report………………………………………… 3


              Recommendations………………………………………… 4


              Management and Inspector Comments……………….. 5


              Appendices

              A. Scope and Methodology……………………………….. 6

              B. Response From Deputy Secretary……………………. 7
Overview
INTRODUCTION       In view of recent concerns regarding the security of Department of
AND OBJECTIVE      Energy (DOE) classified information, including nuclear weapons
                   information, we initiated an inspection to determine whether
                   classified documents are being transmitted by DOE and DOE
                   contractor personnel, including National Nuclear Security
                   Administration (NNSA) and NNSA contractor personnel, to
                   entities outside the Department in accordance with the
                   Department’s policies and procedures. Specific concerns
                   regarding the Department’s mailing of classified material were
                   expressed by a member of the Senate Armed Services Committee
                   during a June 21, 2000, hearing on security failures at the NNSA’s
                   Los Alamos National Laboratory (LANL).

OBSERVATIONS AND   We found that the three Department laboratories included in our
CONCLUSIONS        review did not always adhere to the Department’s safeguards and
                   security policies and procedures for the transmittal of classified
                   documents to entities outside the Department. Specifically, we
                   found that classified documents were transmitted to entities that
                   were not listed in the Department’s database of approved recipients
                   of such documents. When we brought this matter to the attention
                   of the Director, Office of Security and Emergency Operations
                   (SO), he acknowledged that the Department’s policy had been
                   violated, but concluded that there was no compromise of classified
                   information. While we did not independently confirm that no
                   compromise took place, we believe that the Department needs to
                   take prompt action to ensure that policies and procedures relating
                   to transmittal of classified documents are precisely executed and
                   that officials of the Department and its contractors are held
                   accountable when the policies and procedures are not followed.




Page 1                  Inspection of Selected Aspects of the Department
                        of Energy’s Classified Documents Transmittal Process
Details of Findings
DETAILS OF            We reviewed a judgmental sample of 177 transmittals of classified
FINDINGS              documents during calendar year 1999 by selected Department
                      Headquarters and field organizations and three Department
                      laboratories: the NNSA Lawrence Livermore National Laboratory
                      (LLNL), the DOE Pacific Northwest National Laboratory (PNNL),
                      and LANL. We found that 27 of the transmittals, or approximately
                      15 percent of the transmittals we reviewed, were sent by the three
                      laboratories to addresses that were not listed in the Department’s
                      Safeguards and Security Information Management System
                      (SSIMS). These transmittals were either made to an address other
                      than the classified mailing address listed in SSIMS, or were made
                      to facilities that were not registered in SSIMS at the time of the
                      transmittal. Although contractor access to SSIMS is limited, the
                      Department’s policy is very clear on the transmittal of classified
                      material. Specifically, it provides that classified matter shall be
                      addressed only to approved classified addresses, and all such
                      addresses must be verified through SSIMS (DOE Manual 471.2B,
                      “Classified Matter Protection and Control Manual,” dated
                      January 6, 1999). By requiring the use of SSIMS to obtain
                      approved mailing addresses for classified documents, SSIMS
                      serves as a gatekeeper to prevent such documents from being
                      transmitted to unapproved sources. In short, the Department’s
                      policy is that, if the address is not in SSIMS, the document should
                      not be transmitted.

Management Alert      Because of the time sensitive nature of our findings, on
Issued                May 12, 2000, we issued a Management Alert to the Office of
                      Security Affairs (OSA) entitled “Inspection of Classified
                      Information Transmittals.” The purpose of the Management Alert
                      was to advise OSA of preliminary findings from our review that
                      might require immediate attention by appropriate security
                      personnel. We provided background information on the 27
                      classified document transmittals by the three Department
                      laboratories that were sent to addresses that were not in SSIMS.
                      The security classification for the transmitted documents ranged
                      from “SECRET” to “SECRET RD [Restricted Data].” Our
                      objective was to ensure that OSA would take appropriate action to
                      evaluate the security of the classified matter in the transmittals and
                      to investigate the circumstances surrounding the transmittals.

Department Action     In a July 6, 2000, memorandum to the Office of Inspector General
                      on this subject, the SO Director concluded that classified
                      documents had, in fact, been transmitted in a manner inconsistent
                      with the Department’s policy. Nonetheless, it was the SO
                      Director’s conclusion that there was no compromise of classified
                      information. We did not conduct an independent review to



Page 2                                                                 Details of Findings
                      determine whether there was a compromise of classified
                      information in the 27 transmittals.

                      In his July 6, 2000, memorandum, the SO Director stated that SO
                      issued a May 26, 2000, memorandum to the Safeguards and
                      Security Directors and the Lead Program Secretarial Officers
                      reiterating the established policies and procedures regarding the
                      verification of classified mailing addresses. The SO Director
                      expressed the view that the root cause of the mishandling of the
                      transmission of classified information was the limited access to
                      SSIMS provided to the Department’s contractors for verification of
                      approved classified mailing addresses. The SO Director stated,
                      however, that expanding the accessibility of SSIMS to allow
                      contractor personnel access to the database creates a number of
                      security-related (need-to-know) concerns. According to the SO
                      Director, the Office of Safeguards and Security is conducting an
                      evaluation to “compare the cost of compartmentalizing the system
                      to control need-to-know versus the benefits of the change.”

                      Based on the results of our review, we are not convinced that the
                      lack of contractor access to SSIMS is the root cause of the
                      problems identified. Specifically, we found that classified
                      document transmittals were mishandled by PNNL, which had
                      direct access to SSIMS. Instead, we believe there was a
                      breakdown in the execution of internal controls designed to
                      prevent transmittal of classified documents to inappropriate
                      recipients. The recommendations for corrective actions that follow
                      are intended to address this problem.

Management            On August 23, 2000, we issued an initial draft report for
Comments on Initial   management comments that contained four recommendations
Draft Report          to the SO Director for corrective actions. In comments dated
                      September 18, 2000, the SO Director agreed with the
                      recommendations. However, he believed that two of the four
                      recommendations are the responsibility of the Lead Program
                      Secretarial Offices and not SO. To ensure full implementation of
                      the two recommendations Department-wide, we have redirected
                      the two recommendations to the Department’s Deputy Secretary
                      for corrective actions.




Page 3                                                             Details of Findings
RECOMMENDATIONS   We recommend that the Deputy Secretary:

                  1. Ensure that the Department’s policies and procedures for the
                     transmittal of classified material are precisely executed.

                  2. Ensure that officials of the Department and its contractors are
                     held accountable for management failures that result in the
                     improper transmittal of classified material.

                  We also recommend that the Director, Office of Security and
                  Emergency Operations:

                  3. Ensure that officials of the Department and its contractors are
                     knowledgeable of the Department’s policies and procedures for
                     the transmittal of classified material.

                  4. Establish a mechanism for Department contractors to obtain
                     approval of, and to verify mailing addresses for transmittal of
                     classified information.




Page 4                                                          Recommendations
MANAGEMENT   In comments dated November 14, 2000, the Deputy Secretary
COMMENTS     concurred with the findings in our draft report and described
             corrective actions to be implemented in response to our
             recommendations. Regarding recommendations 1 and 2, he said
             that the Department will publish an award fee clause that will
             allow the Department to withhold award fee dollars for violations
             of security directives regarding the protection of classified
             information. He also said that a civil penalties regulation is being
             developed to impose civil penalties up to one hundred thousand
             dollars for the failure to protect classified information. The
             estimated publication date of the award fee clause and the civil
             penalties regulation is May 31, 2001.

             Regarding recommendation 3, the Deputy Secretary stated that the
             Department will increase the level of security awareness
             throughout the Department. He said that special publications
             focusing on this issue are being developed and additional security
             education resources are being allocated. The estimated completion
             date is February 28, 2001.

             Regarding recommendation 4, the Deputy Secretary said that, due
             to the significant volumes of sensitive information in SSIMS and
             the associated need-to-know concerns, efforts are underway in the
             Department to modify SSIMS to provide a read only capability of
             selected facility information. This will allow more organizations
             to access those portions of the system relative to their specific
             operation, without the threat of being able to modify or delete
             information contained in the system. The estimated
             implementation date for the revised system is December 1, 2000.

             The Deputy Secretary’s response is set out in full in Appendix B.

INSPECTOR    We consider management’s comments to be responsive.
COMMENTS




Page 5                                    Management/Inspector Comments
Appendix A
SCOPE AND     Our inspection included interviews of Department of Energy
METHODOLOGY   (DOE) and DOE contractor employees, to include National
              Nuclear Security Administration (NNSA) and NNSA contractor
              employees, at the Department’s Headquarters and field
              organizations, and at three Department laboratories: the NNSA
              Lawrence Livermore National Laboratory, the NNSA Los Alamos
              National Laboratory, and the DOE Pacific Northwest National
              Laboratory. We also reviewed pertinent Department policies and
              procedures and analyzed a judgmental sample of the
              documentation for transmittals of classified documents. Our
              inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 6                                             Scope and Methodology
                                                                         IG Report No. DOE/IG-0488

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
